BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief in Support of the Petition for
Writ of Certiorari in 20-1587, State of Louisiana v.
Tazin Ardell Hill, was sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day service and e-mail to the following parties listed
below, this 25th day of August, 2021:
Richard John Bourke
Louisiana Capital Assistance Center
636 Baronne Street
New Orleans, LA 70113
(504) 258-2915
rbourke@thejusticecenter.org

Counsel for Respondent
Elizabeth B. Murrill
Solicitor General
Counsel of Record
Louisiana Department of Justice
1885 N. Third Street
Baton Rouge, LA 70802
(225) 326-6766
m urrille@ag.louisiana.gov

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 25, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

C2a-~J-f:i; aoJ/
Jihl(J . ~
Notary Public

Date:

[seal]
JOHN 0. GALLAGHER
Notary Public, Stale ot Ohio
My Commission Expires
' ·•tiruary 14, ~();13

